                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              ILLINOIS WORKFORCE INVESTMENT ACT
                                              STATEWIDE ACTIVITY
                                              FOURTH QUARTER EXPENDITURES




                                                                    Date Issued: March 30, 2007
                                                                    Report Number: 02-07-202-03-390
U.S. Department of Labor                                 March 2007
Office of Inspector General
Office of Audit                                          ILLINOIS WORKFORCE INVESTMENT ACT
                                                         STATEWIDE ACTIVITY
                                                         FOURTH QUARTER EXPENDITURES
BRIEFLY…                                                 WHAT OIG FOUND
Highlights of Report Number: 02-07-202-03-390,           Our audit found that the disproportionate increase in
to the Assistant Secretary for Employment and            fourth quarter expenditures was primarily caused by:
Training
                                                             •   inaccurate recording and reporting of
WHY READ THE REPORT                                              expenditure data during the transfer of program
                                                                 responsibilities from the Illinois Department of
Statewide Activity expenditures reported by the
                                                                 Economic Security to DCEO;
State of Illinois, Department of Commerce and
Economic Opportunity (DCEO) to the Employment
and Training Administration (ETA) for the fourth             •   inaccurate reporting of expenditure transfers
quarter of Program Year (PY) 2003 (June 30, 2004)                from one year to another;
were significantly higher when compared to the
preceding three PY quarters. ETA, Congress and               •   accrual reporting issues at Local Workforce
outside parties rely on data from the Financial Status           Investment Areas; and
Reports (FSRs) to make decisions that could have
an impact on current and future funding when                 •   grant management issues.
determining appropriation levels.
                                                         Expenditures were reported in incorrect periods from
This report discusses the causes and the effect of       June 30, 2003, through June 30, 2004. As a result, ETA
the fourth quarter increase in the State of Illinois’    relied on quarterly FSRs that included differences of up
Statewide Activity expenditures.                         to $4.5 million. ETA, Congress and outside parties rely
                                                         on data from the FSRs to make decisions that could
                                                         have an impact on current and future WIA program
WHY OIG DID THE AUDIT
                                                         funding.
The OIG conducted a performance audit to
determine the causes for the disproportionate            WHAT OIG RECOMMENDED
increase in reported WIA Statewide Activity fourth
quarter expenditures and whether the increase had        The OIG recommended the Assistant Secretary for
an impact on data provided to ETA.                       Employment and Training ensure:

                                                         •   DCEO’s reporting system includes a timely
READ THE FULL REPORT
                                                             reconciliation of recorded expenditures to those
To view the report, including the scope,                     reported to ETA.
methodology, and full agency response, go to:
                                                         •   DCEO’s expenditures are reported to ETA
                                                             consistently on an accrual basis.
http://www.oig.dol.gov/publicreports/oa/2007/02-07-
202-03-390.pdf.                                          In its response to the draft report, DCEO concurred with
                                                         the audit findings and recommendations.
                                                 Illinois WIA Statewide Activity Fourth Quarter Expenditures



Table of Contents
                                                                                                                   PAGE

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    A. Inaccurate Recording and Reporting of Expenditure Data during the
      Transfer of Program Responsibilities from IDES to DCEO .............................6

     B. Inaccurate Reporting of Expenditure Transfers from One Funding
        Year to Another ................................................................................................ ..7

     C. Accrual Reporting Issues at Local Workforce Investment Areas ..................8

    D. Grant Management Issues.................................................................................9

APPENDICES ............................................................................................................... 11

     A. Background...................................................................................................... 13

     B. Objective, Scope, Methodology, and Criteria................................................ 15

     C. Acronyms and Abbreviations ......................................................................... 19

     D. Agency Response............................................................................................ 21




U.S. Department of Labor – Office of Inspector General                                                                     1
Report No. 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures




                        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                           Illinois WIA Statewide Activity Fourth Quarter Expenditures



Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the State of
Illinois Workforce Investment Act (WIA) Statewide Activity fourth quarter expenditures
reported during Program Year (PY) 2003 (July 1, 2003 through June 30, 2004). The
audit was conducted at the Illinois Department of Commerce and Economic Opportunity
(DCEO) and two local areas: the Workforce Board of Northern Cook County (WBNCC)
and the Land of Lincoln Consortium (LOLC).

Statewide Activity expenditures reported by DCEO to the Employment and Training
Administration (ETA) for the fourth quarter of PY 2003 (June 30, 2004) were
significantly higher when compared to the preceding three PY quarters. The audit
objective was to determine the causes for the disproportionate increase in reported
fourth quarter expenditures and whether the increase had an impact on data provided to
ETA.

Results

The disproportionate increase in reported expenditures for the fourth quarter of PY
2003 1 was primarily caused by:

    •   inaccurate recording and reporting of expenditure data during the transfer of
        program responsibilities from the Illinois Department of Economic Security
        (IDES) to DCEO;

    •   inaccurate reporting of expenditure transfers from one funding year to another;

    •   accrual reporting issues at Local Workforce Investment Areas; and

    •   grant management issues.

As a result of expenditures being reported in incorrect periods by IDES and DCEO from
June 30, 2003 through June 30, 2004, ETA relied on quarterly FSRs that included
differences of up to $4.5 million. ETA, Congress and outside parties rely on data from
the FSRs to make decisions that could have an impact on current and future funding.




1
 Fourth Quarter Expenditures reported in PY 2003 include amounts charged to PY 2001, PY 2002, and PY 2003
funding.

U.S. Department of Labor – Office of Inspector General                                                      3
Report No. 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures



Auditee Response

In an email response to the draft report, the DCEO Division Manager of Budget and
Fiscal Monitoring concurred with the audit findings and recommendations, and elected
not to submit a formal response.

OIG Conclusion

The recommendations will be resolved during DOL’s formal audit resolution process.

Recommendations

We recommend the Assistant Secretary for Employment and Training ensure:

1. DCEO’s reporting system includes a timely reconciliation of recorded expenditures
   to those reported to ETA.

2. DCEO’s expenditures are reported to ETA consistently on an accrual basis.




4                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC. 20210




                         Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


We conducted a performance audit of Illinois’ WIA Statewide Activity fourth quarter
expenditures reported during PY 2003 (July 1, 2003, through June 30, 2004). The audit
was conducted at the Illinois DCEO and two local areas: WBNCC and LOLC.

The audit objective was to determine the causes for the disproportionate increase in
reported fourth quarter expenditures, and whether the increase had an impact on data
provided to ETA.

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS) for performance audits. Our audit objective, scope, methodology,
and criteria are detailed in Appendix B.


Objective – What were the causes for the disproportionate increase in reported
fourth quarter expenditures, and did the increase have an impact on data
provided to the ETA?

Results and Findings – The disproportionate increase in reported expenditures for the
fourth quarter of PY 2003 was primarily caused by:

   •   inaccurate recording and reporting of expenditure data during the transfer of
       program responsibilities from IDES to DCEO;

   •   inaccurate reporting of expenditure transfers from one funding year to another;

   •   accrual reporting issues at Local Workforce Investment Areas; and

   •   grant management issues.


U.S. Department of Labor—Office of Inspector General                                        5
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures

As a result of expenditures being reported in incorrect periods by IDES and DCEO from
June 30, 2003 through June 30, 2004, ETA relied on quarterly FSRs that included
differences of up to $4.5 million.

ETA, Congress and outside parties rely on financial data from the quarterly FSRs to
make decisions that could have an impact on current and future funding. Data from the
quarterly FSRs are used to:

       •   Conduct analyses regarding the effectiveness and efficiency of the WIA
           program.
       •   Estimate future funding needs and develop initiatives for the subject
           population.
       •   Calculate Fund Utilization Rates that impact the awarding of other WIA grants
           including National Emergency Grants and Demonstration Grants.
       •   Determine the recapture or potential rescission of WIA funds.
       •   Provide data used in the preparation of United States Department of Labor
           Financial Statements.

Data from the quarterly FSRs are also used by Congress to assess the effectiveness
and efficiency of the WIA program when considering future appropriation levels.

A. Inaccurate Recording and Reporting of Expenditure Data During the Transfer
   of Program Responsibilities from IDES to DCEO
    29 CFR 97.20 (b) (1) states “Financial reporting. Accurate, current and complete
    disclosure of the financial results of financially assisted activities must be made in
    accordance with the financial reporting requirements of the grant or sub-grant.”

       •   Expenditures for the Fourth Quarter Ending June 30, 2003, Were
           Overstated by $4,484,753

           WIA funding and program administration was transferred from IDES to DCEO
           effective July 1, 2003. The agencies agreed that IDES would be responsible
           for the PY 2000 WIA closeout. In accordance with WIA regulation, 20 CFR
           Part 667.107(a), funds allotted to States are available for expenditure by the
           State receiving the funds during that program year and the two succeeding
           program years. In order to fully utilize PY 2000 Statewide Activity funding
           prior to expiration (June 30, 2003), IDES transferred $4,484,753 of
           expenditures (incurred prior to June 30, 2003) from PY 2002 funding to
           PY 2000 funding. These transfers were reflected in the PY 2000 final FSR
           submitted by the predecessor agency, IDES for the quarter ending
           June 30, 2003.



6                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures

           DCEO representatives stated they were not aware of this transfer until
           October 2003. Therefore, the transfer was not recorded until that time.
           Consequently, DCEO continued to include these expenditures in its PY 2002
           FSRs until the quarter ending December 31, 2003.

           This resulted in Statewide Activity expenditures reported to ETA being
           overstated by $4,484,753 for quarters ending June 30, 2003 and
           September 30, 2003. To correct this overstatement, DCEO decreased its
           reported expenditures by $4,484,753 for the quarter ending
           December 31, 2003.

       •   Prior Period Understatement of $912,696, Was Reported in the Fourth
           Quarter Ending June 30, 2004

           On July 1, 2003, WIA funding and expenditures applicable to PY 2001 and
           PY 2002 were transferred from IDES to DCEO. The PY 2001 IDES Statewide
           Activity expenditure transfer of $9,393,989 was composed of $4,606,934 for
           local projects and $4,787,055 for state projects. Of these total expenditures,
           DCEO recorded $3,874,359 attributable to state projects, thereby
           understating costs by $912,696 ($4,787,055 less $3,874,359). This was
           caused by DCEO overstating the local portion of the transfer by including
           prior year costs when computing the amount attributable to state projects.
           DCEO corrected the understatement for the quarter ending June 30, 2004.

           This had the effect of PY 2001 FSRs reported to ETA for the quarters ending
           September 30, 2003, December 31, 2003, and March 31, 2004, being
           understated by $912,696 and the fourth quarter PY 2003 expenditures being
           overstated by the same amount.

B. Inaccurate Reporting of Expenditure Transfers from One Funding Year to
   Another

   29 CFR 97.20 (b) (1) states “Financial reporting. Accurate, current and complete
   disclosure of the financial results of financially assisted activities must be made in
   accordance with the financial reporting requirements of the grant or sub-grant.”

       •   Expenditures for the Fourth Quarter Ending June 30, 2004, Were
           Overstated by $1,181,548

           DCEO transferred Statewide Activity expenditures in the amount of
           $1,181,548 from PY 2003 funding to PY 2001 funding. DCEO included this
           transfer in the PY 2001 FSR for the quarter ending June 30, 2004. However,
           this transfer was not reflected in the PY 2003 FSR until the subsequent
           quarter ending September 30, 2004. DCEO representatives stated that for
           financial reporting purposes the accounting department transferred



U.S. Department of Labor—Office of Inspector General                                        7
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures

           expenditures to PY 2001 funding, but mistakenly did not reduce the
           expenditures in PY 2003 funding.

           This resulted in Statewide Activity expenditures reported to ETA by DCEO
           being overstated by $1,181,548 in its June 30, 2004, FSRs.

C. Accrual Reporting Issues at Local Workforce Investment Areas

    20 CFR 667.300 WIA final rules August 11, 2000, (3) states “Reported expenditures
    and program income, including any profits earned, must be on the accrual basis of
    accounting and cumulative by fiscal year of appropriation.” As defined in Training
    and Employment Guidance Letter No. 16-99, Change 1, entitled “WIA Financial
    Reporting,” accrued expenditures represent “…the sum of actual cash
    disbursements for direct charges for goods and services, the amount of indirect
    expense incurred, plus: net increase or decrease in the amounts owed by the state
    grant recipient for goods and other property received; for services performed by
    employees, contractors, subgrantees, and other payees, and other amounts
    becoming owed for which no current services or performance is required, such as,
    annuities, insurance claims, and other benefit payments.”

       •   WBNCC - Prior Period Expenditures of $125,945 Were Reported in
           Fourth Quarter Ending June 30, 2004

           WBNCC reported $1,056,087, or 82 percent, of its PY 2003 Statewide Activity
           expenditures, in the fourth quarter ending June 30, 2004. Of this amount,
           $125,945, or 12 percent, of the expenditures were incurred in the third quarter
           but were not reported until the fourth quarter FSR. WBNCC financial policies
           and procedures require expenditures to be recognized in the period incurred.
           A WBNCC representative stated a contributing factor was contractors not
           submitting invoices on a timely basis. This had the effect of Statewide Activity
           expenditures reported to ETA being understated by $125,945 for the quarter
           ending March 31, 2004, and a corresponding overstatement for the fourth
           quarter ending June 30, 2004.

       •   LOLC – Prior Period Expenditures of $75,139 Were Reported in Fourth
           Quarter Ending June 30, 2004

           LOLC reported $378,395, or 76 percent, of its PY 2003 Statewide Activity
           expenditures in the fourth quarter ending June 30, 2004. Of this amount,
           $75,139, or 20 percent, of the expenditures were incurred in previous
           quarters but were not reported until the fourth quarter ending June 30, 2004.
           LOLC fiscal policies and procedures that were in effect during the audit period
           did not include specific procedures for accrual basis reporting. Subsequently,
           effective October 2005, policies and procedures were updated to address
           accrual reporting. LOLC representatives did not provide reasons for the delay
           in recording expenditures. This had the effect of Statewide Activity

8                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures

           expenditures reported to ETA for the prior quarters being understated and
           quarterly expenditures incurred in the fourth quarter ending June 30, 2004,
           being overstated by $75,139.

D. Grant Management Issues

   LOLC received funding for two Statewide Activity projects from DCEO for which a
   majority of expenditures were incurred in the fourth quarter of PY 2003. While grant
   expenses were accurately reported in the fourth quarter and nothing came to our
   attention that indicated a negative impact on grant performance, the two projects
   contributed to the disproportionate increase in reported fourth quarter expenditures.

       •   Grant No. 01-67720 – 100 Percent of Expenditures Were Incurred in the
           Fourth Quarter

           LOLC received $115,000 from DCEO to procure contractual services to
           develop a one-stop operational plan and a regional strategic plan. The initial
           period of performance for the grant was May 7, 2002, through June 30, 2003,
           and was subsequently extended through June 30, 2004. Contractual services
           were not procured for the regional strategic plan and the one-stop operational
           plan until February 27, 2004, and April 6, 2004, respectively. As a result of
           this 20 month delay in obtaining the services, 100 percent of the expenditures
           were incurred and reported in the quarter ending June 30, 2004.

       •   Grant No. 02-67720 – 98 Percent of Expenditures Were Incurred in the
           Fourth Quarter

           LOLC received $187,800 from DCEO to develop a regional strategic plan, as
           well as for physical improvements (office furnishings). While the period of
           performance for the grant was November 7, 2002 through June 30, 2004,
           LOLC incurred and reported $183,812 of the costs (98 percent) in the fourth
           quarter ending June 30, 2004.

   LOLC representatives stated that the above two grants were not executed in a timely
   manner due to lack of grant management by the previous administrator. They also
   indicated that there was a significant turnover in the LOLC’s upper management.

Auditee Response

In an email response to the draft report, the DCEO Division Manager of Budget and
Fiscal Monitoring concurred with the audit findings and recommendations, and elected
not to submit a formal response.




U.S. Department of Labor—Office of Inspector General                                        9
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures



OIG Conclusion

The recommendations will be resolved during DOL’s formal audit resolution process.

Recommendations

We recommend the Assistant Secretary for Employment and Training ensure:

1. DCEO’s reporting system includes a timely reconciliation of recorded expenditures
   to those reported to ETA.

2. DCEO’s expenditures are reported to ETA consistently on an accrual basis.




Elliot P. Lewis
June 29, 2006




10                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures




Appendices




U.S. Department of Labor—Office of Inspector General                                       11
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures




                        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures


                                                                               APPENDIX A

BACKGROUND

On August 7, 1998, President Clinton signed the Workforce Investment Act of 1998
(WIA), comprehensive reform legislation that superseded the Job Training Partnership
Act and amended the Wagner-Peyser Act.

Title I of WIA provides for workforce investment activities that increase the
employment, retention and earnings of participants, and increase occupational skill
attainment by participants, which will improve the quality of the workforce, reduce
welfare dependency, and enhance the productivity and competitiveness of the
Nation's economy. These goals are achieved through the workforce investment
system.

ETA administered funds for Adult, Youth and Dislocated Worker programs
nationally, under Title I of WIA in the amounts of $3.5 billion, $3.3 billion, and
$3 billion for PY 2001, PY 2002, and PY 2003, respectively. For those same years,
Illinois received funding of $133 million, $200 million, and $155 million, respectively.
In accordance with WIA regulations, the Governor may reserve up to 15 percent of
the Adult, Youth and Dislocated Worker funding streams for Statewide Activities.
Funds allotted to States under WIA for any program year are available for
expenditures by the State receiving the funds during that program year and two
succeeding program years.




U.S. Department of Labor—Office of Inspector General                                       13
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures




                        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures

                                                                                APPENDIX B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

The OIG conducted an audit of WIA funds awarded to Illinois to determine the causes
for the disproportionate increase in reported in fourth quarter expenditures, and whether
the increase had an impact on data provided to ETA.

Scope

Our audit was conducted in accordance with GAGAS for performance audits and
included such tests as we considered necessary to satisfy the audit objectives.

A performance audit includes obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

ETA provided WIA expenditure data for the period of PY 2001 through PY 2003. We
conducted an analysis of this data to determine states that had a disproportionate
increase in fourth quarter expenditures. Based on that analysis, we selected Illinois as
our audit site. We conducted our audit of DCEO at the State office located in
Springfield, Illinois. In addition, based on analysis of state expenditure data we also
selected two local areas: WBNCC and LOLC. Fieldwork at WBNCC and LOLC was
performed at their office’s in Park Ridge, and Springfield, Illinois, respectively.
Fieldwork was conducted from May 16, 2005 through April 12, 2006.

Our audit included the examination of Notice of Obligations, sub-recipient agreements,
policies and procedures, board of director minutes, general ledgers, journal entries,
invoices, cancelled checks, and other source documentation in support of recorded
costs.




U.S. Department of Labor—Office of Inspector General                                       15
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures

Methodology

We relied on WIA quarterly expenditure information for each WIA reporting stream 2
obtained from ETA for costs incurred during Program Years 2001 through 2003. We
performed a trend analysis by reporting stream of fourth quarter expenditures as
compared to the average of the prior three quarters for each of the three program years.
Based on this analysis, Illinois’ Statewide Activity PY 2003 3 fourth quarter expenditures
($11.6 million) were almost six times the average of the prior three quarters ($2 million).
As such, we selected the Illinois DCEO as the audit site.

At DCEO, we conducted tests of data obtained from ETA and applied analytical
procedures to determine the reason and causes for the disproportionate increases in
fourth quarter expenditures. At the local areas, we audited 100 percent of Statewide
Activity expenditures incurred in the fourth quarter of PY 2003 at WBNCC and LOLC for
all open funding years (PY 2001 through PY 2003).

We analyzed the expenditures of Illinois’ local areas and other sub-recipients to
determine those local areas and sub-recipients that significantly contributed to the
increase in fourth quarter expenditures. There were 36 local areas and sub-recipients
that reported Statewide Activity project costs in PY 2003. Fifteen of 36 local areas and
sub-recipients reported that at least 50 percent of their expenditures were incurred
during the fourth quarter. We selected WBNCC and LOLC based on the percentage of
fourth quarter expenditures as well overall dollar magnitude.

At the state and local sites, we obtained an understanding of internal controls through
inquiries with appropriate personnel, inspection of relevant documentation, review of
procedures, and observations of current operations. The nature and extent of our
testing was based on the auditors’ judgment.

At DCEO, we reconciled WIA Notice of Obligations to reporting stream calculations. We
traced reported Statewide Activity expenditures as of June 30, 2004 to the supporting
trial balance, journal entries, and local area/other sub-recipients FSRs.

At WBNCC and LOLC, we audited 100 percent of Statewide Activity expenditures
incurred in the fourth quarter of PY 2003. We traced expenditures from the local areas
financial status reports to the trial balance and transaction detail reports, sub-grantee
agreements, contracts, director minutes, consulting agreements, invoices, and
cancelled checks.




2
  Reporting streams include Local Adult, Youth, Dislocated Worker, Administration, and state reserves for Statewide
Activity and Rapid Response.
3
  Expenditures incurred during PY 2003 include amounts charged to PY 2001 through PY 2003 funding.

16                                                  U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures


Criteria

We used the following criteria to perform this audit:

   •   The Workforce Investment Act of 1998, Public Law 105-220, dated
       August 7, 1998

   •   Workforce Investment Act; Final Rule, 20 CFR Part 652, et al., dated
       August 11, 2000

   •   29 CFR Part 97 - Uniform Administrative Requirements for Grant and
       Cooperative Agreements to State and Local Governments)

   •   OMB Circular A-87 - Cost Principles for State, Local and Indian Tribal
       Governments

   •   Training and Employment Guidance Letter (TEGL) No. 16-99 dated
       June 23, 2000

   •   Training and Employment Guidance Letter (TEGL) No. 16-99 change 1 dated
       November 6, 2002




U.S. Department of Labor—Office of Inspector General                                       17
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures




                        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures


                                                                                APPENDIX C
ACRONYMS AND ABBREVIATIONS


CFR           Code of Federal Regulations
DCEO          Department of Commerce and Economic Opportunity
ETA           Employment and Training Administration
FSR           Financial Status Report
IDES          Illinois Department of Economic Security
LOLC          Land of Lincoln Consortium
OIG           Office of Inspector General
OMB           Office of Management and Budget
PY            Program Year
TEGL          Training and Employment Guidance Letter
WBNCC         Workforce Board of Northern Cook County
WIA           Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                       19
Report No: 02-07-202-03-390
Illinois WIA Statewide Activity Fourth Quarter Expenditures




                        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-07-202-03-390
                                     Illinois WIA Statewide Activity Fourth Quarter Expenditures



                                                                                APPENDIX D

AGENCY RESPONSE

In an email response to the draft report, the DCEO Division Manager of Budget and
Fiscal Monitoring concurred with the audit findings and recommendations, and elected
not to submit a formal response.




U.S. Department of Labor—Office of Inspector General                                       21
Report No: 02-07-202-03-390
